KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

September 10, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

No. 20-31, Price McCoy, Sr. v. Tajudeen Alamu

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Tajudeen Alamu
respectfully moves for an extension of the time for filing his response to the petition
for certiorari in this case.
On August 26, the Court requested that a response to the petition be filed on or
before September 25, 2020. Respondent requests a 30-day extension of that
deadline, to October 26, 2020 (a Monday). Petitioner has advised that he does not
oppose the requested extension.
This extension is necessary because the undersigned counsel of record and
counsel assisting him have a significantly increased workload due to COVID-19related litigation involving the State of Texas and its officials, including several
emergency and expedited matters, in addition to other litigation with recent or
upcoming deadlines. Those matters include:
• Tex. Democratic Party v. Abbott, No. 20-50407 (5th Cir.) (oral argument
August 31, 2020)
• Schwab v. Fish, No. 20-109 (U.S.) (amicus brief filed September 2, 2020)
• State of Texas v. Rettig, No. 18-10545 (5th Cir.) (petition for rehearing en banc
due September 14, 2020)
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Page 2
• Electric Reliability Council of Tex. Inc. v. Panda Power Generation Infrastructure
Fund LLC, No. 18-0781 (Tex.), In re Panda Power Generation Infrastructure
Fund LLC, No. 18-0792 (Tex.) (consolidated oral argument September 15,
2020)
• Texas v. New Mexico, Orig. 65 (U.S.) (oral argument October 5, 2020)
• In re Academy, No. 19-0497 (Tex.) (oral argument October 6, 2020)
• In re Tex.-N.M. Power Corp., No. 19-0656 (Tex.), In re Oncor Elec. Delivery Co.
LLC, No. 19-0662 (Tex.), In re CenterPoint Energy Hous. Elec., No. 19-0777
(Tex.) (oral arguments October 8, 2020)
• Planned Parenthood Ctr. for Choice v. Abbott, No. 20-305 (U.S.) (brief in
response to petition for certiorari due October 9, 2020)
For the foregoing reasons, Respondent Tajudeen Alamu respectfully requests a
30-day extension of the deadline to file his response to the petition for a writ of
certiorari, creating a new deadline of October 26, 2020.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Samuel Weiss (via e-mail)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

